U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530
December 21, 2020

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rakeem Asaad Davis v. USA,
S.Ct No. 20-6486

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
19, 2020 and placed on the docket on December 1, 2020. The government’s response is due on
December 31, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6486
DAVIS, RAKEEM ASAAD
USA

JACQUELINE ESTHER SHAPIRO
JACQUELINE E. SHAPIRO, P.A.
40 N.W. 3RD STREET, PH1
MIAMI, FL 33128
305-403-8207
SHAPIRO.MIAMILAW@GMAIL.COM

